         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Radiological Waste Operations in
Area G at Los Alamos National
Laboratory




INS-O-13-03                                 March 2013
                                  Department of Energy
                                    Washington, DC 20585

                                         March 20, 2013


MEMORANDUM FOR THE MANAGER, LOS ALAMOS FIELD OFFICE, NATIONAL
               NUCLEAR SECURITY ADMINISTRATION



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Radiological Waste
                         Operations in Area G at Los Alamos National Laboratory"

INTRODUCTION

Los Alamos National Laboratory (Los Alamos) has a national security mission that includes
science, engineering and technology related to radioactive and hazardous materials such as
plutonium, americium, asbestos and lead. Material Disposal Area G, located in Technical Area
54, is one of Los Alamos' active disposal areas for low-level radioactive waste. To help ensure
that operations are conducted in a safe and efficient manner, Los Alamos developed a program to
integrate management and radiological waste operations work practices in Area G. The National
Nuclear Security Administration's (NNSA) Los Alamos Field Office is responsible for
overseeing the operations of Los Alamos.

Title 10, Code of Federal Regulations, Part 830, Nuclear Safety Management, and Department of
Energy (Department) and Laboratory requirements govern the conduct of Department
contractors, personnel and other persons conducting activities that affect, or may affect, the
safety of the Department's nuclear facilities. Assessments completed by the Los Alamos Field
Office and the Department's Office of Enforcement and Oversight, Office of Health, Safety and
Security in 2011 identified operational problems that could adversely impact safety at Los
Alamos.

Because safety is an essential part of the Department's operations, we initiated an inspection to
determine whether previously reported safety weaknesses had been addressed and whether
radiological waste operations in Material Disposal Area G were being conducted in a safe
manner.

RESULTS OF INSPECTION

We noted that Los Alamos developed corrective actions designed to address safety issues
identified during the 2011 safety assessments. While progress had been made, our inspection
                                                2


identified opportunities for further improvements regarding training, the consistency of Area G
operational activities with safety requirements, and updating safety-related documents.
Specifically, we found that:

   •   Seven individuals who worked in Area G did not complete the required safety training,
       and an additional two individuals' training files were not updated with the employees'
       most current training information.

   •   Some Area G operational activities were not conducted in a manner that was consistent
       with specific operational safety requirements. For example, during our tours of the
       facility we observed blocked emergency access roads, unsafe forklift operations, and
       potential cross-contamination of work/break areas.

   •   The Technical Safety Requirements document used to specify required safety and
       operational procedures contained numerous outdated or cancelled references.

In several observed instances, Los Alamos did not ensure Area G operated in a manner that
supported the adequate protection of the workers and the environment, consistent with required
safety standards and operational safety requirements. Further, Los Alamos did not periodically
review the Technical Safety Requirements document to ensure that all references to applicable
Laboratory procedures and Department and national consensus documents were updated and
current. Because Los Alamos did not take sufficient steps to ensure that unsafe conditions were
avoided or mitigated, these conditions may exist and could lead to personnel injury or property
damage in Area G.

Based on these observations, we believe Los Alamos can take a number of steps to improve the
safety of Area G operations for the workers. Therefore, we have made a number of
recommendations designed to assist the NNSA with ensuring that Area G operations are
conducted in a safe manner.

MANAGEMENT REACTION

Management generally agreed with the report's findings and recommendations and indicated it
was in the process of implementing or completing corrective actions. However, management
disagreed with our finding concerning the potential risk of spreading contamination between
controlled and uncontrolled areas. While we agree that no accessible contamination was known
to exist within the Radiological Controlled Area of Area G, and that the probability to spread
contamination may not be great, we believe that the condition we observed did create the
potential. The potential existed because employees were allowed to return to an area that they
had just been cleared to leave. This occurred as a result of the circumvention of a radiological
safety measure that was part of the site's overall radiation protection program (e.g. the use of
hand and foot monitoring at the Radiological Controlled Area boundary). Management's formal
comments are included in Appendix 2.
                                              3


Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
REPORT ON RADIOLOGICAL WASTE OPERATIONS IN AREA G AT
LOS ALAMOS NATIONAL LABORATORY

TABLE OF
CONTENTS

Safety Issues

Details of Finding                                     1

Recommendations                                        6

Management Reaction and Inspector Comments             7


Appendices

1. Objective, Scope and Methodology                    8

2. Management Comments                                 10

3. Prior Reports                                       17
RADIOLOGICAL WASTE OPERATIONS IN AREA G AT LOS ALAMOS
NATIONAL LABORATORY

SAFETY ISSUES   In 2011, assessments completed by the Los Alamos Field Office
                (Field Office) and the Department of Energy's (Department) Office
                of Enforcement and Oversight, Office of Health, Safety and
                Security identified operational problems that could adversely
                impact safety at Los Alamos National Laboratory (Los Alamos).
                These assessments found deficiencies in environmental
                management, operations, safety basis procedures and engineering
                safety system oversight. In addition to these issues, we identified
                opportunities for further improvements regarding: (1) training
                discrepancies; (2) consistency of Material Disposal Area G (Area
                G) operational activities with operational safety requirements; and
                (3) the use of safety-related documents that referenced outdated
                requirements.

                                      Training Discrepancies

                We found that seven individuals who worked in Area G did not
                complete the required safety training. An additional two
                individuals' training files were not updated with the employees'
                most current training information. Examples of incomplete
                training included safety training in the areas of Radiological
                Worker, Resource Conservation and Recovery Act and Resident
                Employee Training that addresses field hazards. Training
                necessary to maintain specific skill proficiencies and unescorted
                entry into Area G was also not completed as required. Department
                Order 426.2, Personnel Selection, Training, Qualification, and
                Certification Requirements for DOE Nuclear Facilities, contains
                requirements to ensure personnel have requisite knowledge, skills
                and abilities to properly and safely perform work. The Los
                Alamos Standard Operating Procedures for Personnel, Training
                and Qualification requires personnel to receive training that
                addresses work-specific risks and hazards consistent with
                personnel roles and responsibilities. Responsible managers must
                identify the qualification requirements, training needs and
                proficiency requirements for personnel assigned to work.

                Our review of Los Alamos' recently implemented training
                program, UTrain, which handles all employee training
                authorizations and training transactions, identified these errors.
                Specifically, our review of 42 files for employees working in Area
                G identified a total of 9 discrepancies. Four files showed that
                individuals had not maintained specific skill proficiencies, such as
                working around lead and asbestos, working in high noise areas and
                using fire extinguishers. Three files showed that individuals had
                not taken the necessary training courses to gain unescorted entry

Page 1                                                          Details of Finding
                into Area G, including Hazardous Waste Operations and
                Emergency Response and Radiological Worker training. Also, two
                other files were not updated with the employees' most current
                training information to include Powered Air Purifying Respirator
                and the Hazardous Waste Operations and Emergency Response
                training. Failure to take training necessary to maintain specific
                skill proficiencies could result in unsafe activities.

                We also found that Los Alamos' implementation of UTrain could
                allow for future training discrepancies. As an example, training
                alerts were disseminated to employees by e-mail; however, if an
                employee did not have regular access to e-mail, the employee
                would not always know when training was required. Additionally,
                we were told by Los Alamos training officials that Laboratory craft
                workers were not receiving training alerts. We also noted that a
                number of Area G workers had similar issues. Failure to provide
                timely notification of training requirements could prevent Area G
                workers from maintaining the skill proficiencies in the areas
                previously discussed, which could result in Area G workers not
                being able to successfully deal with a safety incident or accident.

OPERATIONAL     Our review determined that some Area G operational activities
SAFETY ISSUES   were not conducted in a manner that was consistent with
                operational safety requirements. The following items are examples
                of concerns we found during our review.

                                    Roadway Emergency Access

                The emergency access roadway in Area G was blocked on two
                occasions; a practice that could limit access for wide vehicles such
                as ambulances and fire trucks. While there is no Los Alamos or
                Department policy or procedure that addresses this issue, the
                roadway in question is considered an "emergency access route"
                where the Los Alamos Fire Department has the responsibility to
                periodically conduct "walk-downs" to identify obstacles that
                impede emergency access. Therefore, we believe that delayed
                emergency vehicle access due to roadway obstruction could lead to
                additional and/or more severe worker injuries.

                         Forklift Warning Systems and Spotter Positioning

                During four separate onsite visits, we found one forklift that did not
                have an audible reverse beeper and a forklift operator unloading
                drums who was not in line-of-sight and/or verbal communication
                with a spotter. This warning device and safe operating procedure
                are required by EWMO (Environment and Waste Management

Page 2                                                            Details of Finding
         Facility Operations) DIVISION SPECIFIC FORKLIFT
         OPERATIONS (EP-DIV-DOP-0111) and Los Alamos National
         Laboratory Procedure P101-4, Fork Lift and Powered Industrial
         Truck, respectively. Absent required audible warning devices on
         forklifts, a worker or workers not paying attention could be injured.
         Additionally, without proper spotter positioning and
         communication, a forklift operator could miss an obstruction and
         drop the load or injure other employees.

                             Radiological Safety Practices

         Personnel moved between controlled (less than the releasable limit
         for radiological contamination) and uncontrolled (uncontaminated)
         zones, creating the potential to spread contamination to an
         uncontaminated facility. Specifically, a broken turnstile east of
         Area G forced employees to re-enter the controlled area after being
         cleared of contamination at a screening facility enroute to an
         uncontrolled break facility. With the turnstile broken, the
         employees went to the screening facility to be cleared for radiation
         contamination. The employees then obtained a key to a padlock
         for the vehicle gate, re-entered the controlled area to unlock the
         vehicle gate and walked to the break facility. Upon return, the
         employees repeated these steps. This condition conflicted with
         basic radiological safety practices outlined in Los Alamos National
         Laboratory Procedure P121, Radiation Protection, dated June 1,
         2011. We were provided written notification that the turnstile was
         repaired on December 8, 2011.

         NNSA disagreed with our statement that this issue created the
         opportunity for the spread of contamination to an uncontaminated
         facility. Area G is a Radiological Controlled Area (RCA) with
         Contamination Areas (CA) located within its boundaries. NNSA
         said that because processes are performed in the CA that could
         result in contamination such as "box remediation" and "drum
         venting," this area is subject to constant air monitoring and step off
         boundaries where anti-contamination clothing is taken-off and
         whole body monitoring is conducted. As an added safety measure,
         additional hand and foot monitoring is performed at the
         radiological buffer area around the CA and at the RCA boundary
         where the broken turnstile was located. NNSA took the position
         that as neither the RCA nor an uncontrolled area is
         "contaminated," there is no direct risk of spreading contamination
         via movement between those areas. NNSA said that while the
         observed temporary routing of employees through the RCA after
         screening is not the desired practice under routine operations, the
         action did not present a risk for the spread of contamination.

Page 3                                                    Details of Finding
         However, while we agree that no accessible contamination is
         known to exist within the RCA and that the probability to spread
         contamination may not be great, we believe that the condition we
         observed did create the potential for the spread of contamination
         outside the RCA. This potential existed because employees were
         allowed to return to an area that they had just been cleared to leave
         through the circumvention of a radiological safety measure that
         was part of the site's overall radiation protection program (e.g. the
         use of hand and foot monitoring at the RCA boundary). We
         believe that NNSA's intent to require Los Alamos to perform
         technical evaluations/justifications for future operational
         constraints of this type, to include recommendations for
         compensatory measures such as defined walkways from the
         monitoring station to the exit, should ensure that such constraints
         are managed in a manner consistent with the site's overall radiation
         policy.

                               Other Safety Concerns

         We noted the following additional safety concerns during our
         walkthrough:

            •   Failure to properly "chock" wheels on one parked truck, as
                required by local safety regulations, creating the potential
                for property damage or injury to personnel;

            •   Failure to comply with aisle width standards between
                container stacks in one instance, as required by the Waste
                Disposition Project Resource Conservation and Recovery
                Act Inspections document, potentially hampering
                emergency operations; and,

            •   Missing the annual safety certification tag on a bridge
                ladder, as required by the Waste Disposition Project
                Resource Conservation and Recovery Act Inspections
                document, potentially compromising the safety of workers.
                The ladder was not in use at the time.




Page 4                                                    Details of Finding
OUTDATED SAFETY   We found that the Technical Safety Requirements document
DOCUMENTS         in effect during our review contained numerous outdated or
                  cancelled references to performance requirements and standards.
                  Specifically, the Technical Safety Requirements document
                  contained 29 Los Alamos references, of which 21 were either
                  previously cancelled or replaced. For example, this document
                  referenced Los Alamos Performance Requirement 230-02-00,
                  Facility Condition and Inspections that was cancelled by Los
                  Alamos National Laboratory Procedure P951, Conduct of
                  Maintenance, in September 2006. Additionally, the eight
                  remaining references were found to address outdated Department
                  and national consensus documents. For example, Department
                  Order 5700.6C, Quality Assurance, was cancelled by Department
                  Order 414.1, Quality Assurance, that has since become Department
                  Order 414.1D. In addition, National Fire Protection Association's
                  (NFPA) 1999 edition of NFPA 70: National Electrical Code, was
                  cited instead of the current 2011 edition, and the Institute of
                  Nuclear Power Operations (INPO) 90-020, Performance
                  Objectives and Criteria for Corporate Evaluations, was cited
                  instead of the current, INPO 05-003 Performance Objectives and
                  Criteria.

                  The Basis for Interim Operations was intended to update and
                  replace the Documented Safety Analyses and the Technical Safety
                  Requirements documents. The Field Office had required Los
                  Alamos to review and modify approximately 150 policy and
                  procedural documents. These support the Basis for Interim
                  Operations and Technical Safety Requirements that were approved
                  on March 1, 2012. NNSA agreed that the references had not been
                  updated in the currently approved and implemented Documented
                  Safety Analyses. NNSA also indicated that a new Area G
                  Documented Safety Analyses was approved in March 2012 and
                  does have updated references, but has yet to be implemented. In
                  addition, NNSA indicated that safety basis documents undergo an
                  annual review and approval process as required by Title 10 Code
                  of Federal Regulations (CFR) 830.202 and that references were
                  updated in the Area G Technical Safety Requirements document in
                  September 2012. NNSA indicated that the words "or successor
                  document" were added to references to ensure that the Technical
                  Safety Requirements document remains current and technically
                  accurate, even when reference changes occur between Technical
                  Safety Requirements updates.




Page 5                                                         Details of Finding
                  However, given the fact that the current Technical Safety
                  Requirements document contained numerous outdated references,
                  and that some of the outdated or cancelled references survived the
                  annual review and approval process, we believe that continued
                  attention to this issue is warranted to ensure that references to
                  performance requirements and standards are kept current.

CONTRIBUTING      The issues discussed in this report occurred, in part, because Los
FACTORS AND       Alamos did not always ensure Area G personnel operated in a
IMPACT            manner that supported the adequate protection of the workers
                  and the environment under the nuclear safety requirements of Title
                  10, CFR, Part 830, and related Department and Los Alamos
                  requirements. Additionally, Los Alamos did not ensure that all
                  personnel working in Area G were fully trained to perform
                  required duties, and that UTrain files were updated to reflect
                  current training records. Also, Los Alamos did not ensure that
                  Area G operational activities were consistent with specific
                  operational safety requirements. Finally, while the Technical
                  Safety Requirements document had been reviewed as late as
                  January 2012, Los Alamos did not properly ensure that all
                  references to applicable Laboratory procedures and Department
                  and national consensus documents were updated and current.

                  As a consequence, unsafe conditions could lead to personnel injury
                  or property damage in Area G. Specifically, because of training
                  deficiencies, some individuals may have been performing work
                  activities without the necessary skills. In addition, some
                  individuals may not have been aware of the applicable policies and
                  procedures necessary to perform work in a safe manner. Because
                  Area G operational activities were not always consistent with
                  specific operational safety requirements, the potential exists for
                  unsafe conditions that could have led to personnel injury or
                  property damage. Finally, because of outdated references to
                  requirements in safety-related documents, Los Alamos workers
                  could have performed procedures that did not conform to current
                  standards.

RECOMMENDATIONS   To address the issues outlined in our report and to help prevent
                  recurrence, we recommend that the Manager, Los Alamos Field
                  Office:

                       1. Ensure Area G employees receive UTrain notifications
                          and take the training required to maintain current skills
                          and perform work involving nuclear waste operations in a
                          safe manner;



Page 6                                                          Recommendations
                  2. Ensure Area G operational activities are consistent with
                     specific operational safety requirements, such as those
                     found in the Waste Disposition Project Resource
                     Conservation and Recovery Act Inspections document;
                     and,

                  3. Conduct periodic reviews of Los Alamos safety-related
                     documents to ensure that references such as Los Alamos
                     performance requirements, Department requirements and
                     national consensus documents are current.

MANAGEMENT   Management generally agreed with the report's findings and
REACTION     recommendations and indicated it was in the process of
             implementing or completing corrective actions. However,
             management disagreed with the finding concerning the potential
             risk of spreading of contamination between controlled and
             uncontrolled areas. NNSA believes the issue relates to a
             misinterpretation of existing policies relating to controlled and
             uncontrolled areas.

             Management comments have been provided in their entirety in
             Appendix 2.

INSPECTOR    Management's comments and planned corrective actions
COMMENTS     are generally responsive to our report findings and
             recommendations. With regard to management's disagreement on
             the issue of spreading contamination, we agree that no accessible
             contamination was known to exist within the RCA of Area G, and
             that the potential to spread contamination may not be great.
             However, we believe that the condition we observed did create the
             potential for the spread of contamination outside the RCA. The
             potential existed because employees were allowed to return to an
             area that they had just been cleared to leave. This occurred as a
             result of the circumvention of a radiological safety measure that
             was part of the site's overall radiation protection program (e.g. the
             use of hand and foot monitoring at the RCA boundary).




Page 7                               Management and Inspector Comments
Appendix 1_


OBJECTIVE     The objective of this inspection was to determine whether
              previously reported safety weaknesses had been addressed and
              whether radiological waste operations in Material Disposal Area G
              (Area G) were being conducted in a safe manner.

SCOPE         This inspection was conducted from September 2011 through
              March 2013, at the National Nuclear Security Administration
              (NNSA) Albuquerque Complex, the Los Alamos Field Office
              (Field Office) and the Los Alamos National Laboratory (Los
              Alamos).

METHODOLOGY   To accomplish the inspection objective, we:

                   •   Reviewed and analyzed Title 10, Code of Federal
                       Regulations, Part 830, Nuclear Safety Management, and
                       Department of Energy (Department), NNSA and Los
                       Alamos guidance and requirements documents;

                   •   Received informational briefings from the Department,
                       NNSA and Los Alamos personnel;

                   •   Participated in a video conference with the Department's
                       Environmental Management officials;

                   •   Interviewed personnel at the Field Office and Los
                       Alamos;

                   •   Conducted four walkthroughs of Area G; and,

                   •   Received a UTrain familiarization briefing and reviewed
                       Los Alamos training records.

              This inspection was conducted in accordance with the Council of
              the Inspectors General on Integrity and Efficiency, Quality
              Standards for Inspection and Evaluation, January 2012. Those
              standards require that we plan and perform the review to obtain
              sufficient, appropriate evidence to provide a reasonable basis for
              our findings and conclusions based on our objectives. We believe
              the evidence obtained provides a reasonable basis for our findings
              and conclusions based on our objectives. Accordingly, the
              inspection included tests of controls and compliance with laws and
              regulations to the extent necessary to satisfy the inspection
              objective. In particular, we assessed the Department's compliance
              with the Government Performance and Results Act Modernization
              Act of 2010 by reviewing Los Alamos' performance measurement

Page 8                                   Objective, Scope and Methodology
Appendix 1 (continued)
                    processes related to the Safety Program. We found that Los
                    Alamos National Security, LLC, had performance measures in the
                    areas of Legacy Transuranic Waste Disposition, Sustained
                    Implementation of Formality of Operations, Conduct of Operations
                    Maturity, and Conduct of Training. These measures appear to
                    address training, operational safety and the Documented Safety
                    Analyses. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that may
                    have existed at the time of our inspection. Finally, we relied on
                    computer-processed data, to some extent, to satisfy our objective.
                    We confirmed the validity of such data, as appropriate, by
                    conducting interviews and reviewing source documents.

                    The exit conference was waived by NNSA management.




Page 9                                          Objective, Scope and Methodology
Appendix 2

             MANAGEMENT COMMENTS




Page 10                            Management Comments
Appendix 2 (continued)




Page 11                  Management Comments
Appendix 2 (continued)




Page 12                  Management Comments
Appendix 2 (continued)




Page 13                  Management Comments
Appendix 2 (continued)




Page 14                  Management Comments
Appendix 2 (continued)




Page 15                  Management Comments
Appendix 2 (continued)




Page 16                  Management Comments
Appendix 3

                                       PRIOR REPORTS

•   Audit Report on Nuclear Safety: Safety Basis and Quality Assurance at the Los Alamos
    National Laboratory (IG-0837, August 2010). The Department of Energy's (Department or
    DOE) Los Alamos National Laboratory (Los Alamos) is a government-owned, contractor-
    operated facility that is part of the National Nuclear Security Administration's (NNSA)
    nuclear weapon complex. Los Alamos' primary mission is to ensure the safety, security and
    reliability of the Nation's nuclear deterrent force. To meet its mission, Los Alamos
    employees and subcontractors operate in close proximity to or in contact with special nuclear
    materials, explosives and hazardous chemicals. The Department considers safety an integral
    part of its mission, operating in compliance with nuclear safety requirements of Title 10,
    Code of Federal Regulations, Part 830, Nuclear Safety Management. The Regulation
    requires contractors to complete the Documented Safety Analyses, which identify hazards
    associated with relevant work processes, update it as conditions change, and to design and
    implement controls over such hazards. Further under Department Order 414.1C, Quality
    Assurance, contractors are required to develop and implement a Quality Assurance Program
    to prevent or detect safety or other problems in the workplace. The Documented Safety
    Analyses and Quality Assurance requirements are critically important and are designed to
    protect workers, the public and the facilities from the devastating effects of nuclear-related
    accidents. We found that until Los Alamos corrects weaknesses in the analysis of hazards,
    establishes compensating internal controls, identifies and addresses all unresolved quality
    assurance issues and completes implementation of its ongoing initiatives, there is no
    assurance that safety risks associated with work processes are minimized. These corrective
    actions are critical to maximizing the reliability and performance of Los Alamos safety
    systems.

•   Inspection Report on Implementation of Nuclear Weapons Quality Assurance Requirements
    at Los Alamos National Laboratory (INS-L-11-02, July 2011). NNSA's Los Alamos is a
    multidisciplinary research and production institution responsible for the design and
    production of nuclear weapons components. In its effort to attain the highest quality in
    weapons engineering design and manufacturing, the Department established the DOE/NNSA
    Weapon Quality Policy (QC-1). The policy requires that items, services and processes that
    do not meet established requirements be identified, controlled and corrected. To that end,
    NNSA and Los Alamos conduct surveys to help ensure that problems are identified and
    corrected. We did, however, identify a potential opportunity to improve the effectiveness of
    the program. Specifically, we found that Los Alamos may not have focused on identifying
    and evaluating the cause or causes of frequently cited weaknesses related to certain design
    and production activities. Therefore, additional effort may be needed to determine whether
    weaknesses reported in the surveys are systemic in nature.




Page 17                                                                            Prior Reports
                                                                    IG Report No. INS-O-13-03


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
